<html>
<title> - S. 1694, TO AMEND PUBLIC LAW 103-434 TO AUTHORIZE PHASE III OF THE YAKIMA RIVER BASIN WATER ENHANCEMENT PROJECT FOR THE PURPOSES OF IMPROVING WATER MANAGEMENT IN THE YAKIMA RIVER BASIN, AND FOR OTHER PURPOSES</title>
<body><pre>[Senate Hearing 114-142]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 114-142

  S. 1694, TO AMEND PUBLIC LAW 103-434 TO AUTHORIZE PHASE III OF THE 
   YAKIMA RIVER BASIN WATER ENHANCEMENT PROJECT FOR THE PURPOSES OF 
  IMPROVING WATER MANAGEMENT IN THE YAKIMA RIVER BASIN, AND FOR OTHER 
                                PURPOSES

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                                   ON

                                S. 1694

TO AMEND PUBLIC LAW 103-434 TO AUTHORIZE PHASE III OF THE YAKIMA RIVER 
  BASIN WATER ENHANCEMENT PROJECT FOR THE PURPOSES OF IMPROVING WATER 
      MANAGEMENT IN THE YAKIMA RIVER BASIN, AND FOR OTHER PURPOSES

                               ----------                              

                         TUESDAY, JULY 7, 2015
                         
                         
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                         


                       Printed for the use of the
               Committee on Energy and Natural Resources
               
                              --------------
                              
                              
                         U.S. GOVERNMENT PUBLISHING OFFICE
95-296 PDF                    WASHINGTON : 2016                         

_________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e88f9887a88b9d9b9c808d8498c68b8785c6">[email&#160;protected]</a>  



                      COMMITTEE ON ENERGY AND NATURAL RESOURCES

 LISA MURKOWSKI, Alaska, Chairman

MARIA CANTWELL, Washington           JOHN BARRASSO, Wyoming
RON WYDEN, Oregon                    JAMES E. RISCH, Idaho
BERNARD SANDERS, Vermont             MIKE LEE, Utah
DEBBIE STABENOW, Michigan            JEFF FLAKE, Arizona
AL FRANKEN, Minnesota                STEVE DAINES, Montana
JOE MANCHIN III, West Virginia       BILL CASSIDY, Louisiana
MARTIN HEINRICH, New Mexico          CORY GARDNER, Colorado
MAZIE K. HIRONO, Hawaii              ROB PORTMAN, Ohio
ANGUS S. KING, Jr., Maine            JOHN HOEVEN, North Dakota
ELIZABETH WARREN, Massachusetts      LAMAR ALEXANDER, Tennessee
                                     SHELLEY MOORE CAPITO, West 
                                     Virginia

                                 ------                                

 KAREN K. BILLUPS, Staff Director
 PATRICK J. McCORMICK III, Chief 
              Counsel
   CHRISTOPHER KEARNEY, Budget 
 Analyst and Senior Professional 
           Staff Member
ANGELA BECKER-DIPPMANN, Democratic 
          Staff Director
 SAM E. FOWLER, Democratic Chief 
              Counsel
  MELANIE STANSBURY, Democratic 
     Professional Staff Member
                            
                            C O N T E N T S

                              ----------                              

                           Opening Statements

                                                                   Page
Murkowski, Hon. Lisa, Chairman, and a U.S. Senator from Alaska...     1
Cantwell, Hon. Maria, Ranking Member, and a U.S. Senator from 
  Washington.....................................................     2

                               Witnesses

Iseman, Tom, Deputy Assistant Secretary for Water and Science, 
  U.S. Department of the Interior................................     4
Sandison, Derek, Director, Washington State Department of 
  Agriculture,...................................................    12
Eberhart, Urban, General Manager, Kittitas Reclamation District 
  and Farmer.....................................................    19
Garrity, Michael, Director, Rivers of Puget Sound and the 
  Columbia Basin, and American Rivers............................    26
Rigdon, Phil, Superintendent, Department of Natural Resources, 
  Yakama Nation..................................................    38

          Alphabetical Listing and Appendix Material Submitted

Aigner, Rob and Tina
    Statement for the Record.....................................    94
Aiken, Michael
    Statement for the Record.....................................    95
Aiken, Michael and Madeline
    Statement for the Record.....................................    96
Aiken, Shannon
    Statement for the Record.....................................    97
Albulet, Lucretia and Mihai
    Statement for the Record.....................................    98
Alpine Lakes Protection Society, et al.
    Statement for the Record.....................................    99
Andrew, David
    Statement for the Record.....................................   105
Angrisano, Robert
    Statement for the Record.....................................   106
Aresu, Anthony (Diana, Avery, Kendall)
    Statement for the Record.....................................   107
Bailey, Hailly
    Statement for the Record.....................................   109
Blacker, Margot
    Statement for the Record.....................................   111
Bocek, Thomas
    Statement for the Record.....................................   112
Burke, Mark
    Statement for the Record.....................................   113
Burt, Craig
    Statement for the Record.....................................   114
Campbell, William
    Statement for the Record.....................................   115
Cantwell, Hon. Maria
    Opening Statement............................................     2
Chapman, Murray
    Statement for the Record.....................................   116
Cranton, Timothy
    Statement for the Record.....................................   117
Curtis, Robert and Melissa
    Statement for the Record.....................................   118
Cyzner, Eric
    Statement for the Record.....................................   119
Delarosa-Fountain, Nikki
    Statement for the Record.....................................   120
Duncanson, Kay
    Statement for the Record.....................................   121
Eberhart, Urban
    Opening Statement............................................    19
    Written Testimony............................................    21
Fisette, Erica
    Statement for the Record.....................................   123
Foster, Avery
    Statement for the Record.....................................   124
Foster, Kelsey
    Statement for the Record.....................................   125
Foster, Roger
    Statement for the Record.....................................   126
Fountain, Tim and Jean
    Statement for the Record.....................................   127
Friends of Bumping Lake
    Statement for the Record.....................................   128
Friends of Lake Kachess
    Statement for the Record.....................................   129
Frye, Carll and Robyn
    Statement for the Record.....................................   137
Garrity, Michael
    Opening Statement............................................    26
    Written Testimony............................................    28
Hazard, Albert
    Statement for the Record.....................................   138
Heart of America Northwest
    Statement for the Record.....................................   139
Hurley, Ann
    Statement for the Record.....................................   140
Iseman, Tom
    Opening Statement............................................     4
    Written Testimony............................................     7
Jones, Traci
    Statement for the Record.....................................   141
Judd, Nancy
    Statement for the Record.....................................   142
June, Christa
    Statement for the Record.....................................   143
Jung, Charles and Carol
    Statement for the Record.....................................   144
Kachess Community Association
    Statement for the Record.....................................   145
Kachess Ridge Maintenance Association
    Statement for the Record.....................................   159
Kachess Ridge Maintenance Association, et al.
    Statement for the Record.....................................   176
Karaus, Matthew
    Statement for the Record.....................................   191
Kearny, Katherine
    Statement for the Record.....................................   192
Kearny, Ryan
    Statement for the Record.....................................   193
Kitchell, MD, Robert
    Statement for the Record.....................................   195
Kitchell, Virginia Rives
    Statement for the Record.....................................   196
Koch, Melvin
    Statement for the Record.....................................   197
Lewis, Ann
    Statement for the Record.....................................   198
Lund, Ron and Amanda
    Statement for the Record.....................................   208
Lynch, Raymie
    Statement for the Record.....................................   209
Martin, Joel and LeaAnn
    Statement for the Record.....................................   210
Maykut, Naydene
    Statement for the Record.....................................   211
McPhee, Miles and Saundra
    Statement for the Record.....................................   212
Murkowski, Hon. Lisa
    Opening Statement............................................     1
Oslund, Steve
    Statement for the Record.....................................   213
Owens, Clifford
    Statement for the Record.....................................   214
Owens, Joann
    Statement for the Record.....................................   215
Owens, Rachel
    Statement for the Record.....................................   216
Owens, Stephanie
    Statement for the Record.....................................   217
Parry, Jeff
    Statement for the Record.....................................   218
Rigdon, Phil
    Opening Statement............................................    38
    Written Testimony............................................    40
Rosen, Ross
    Statement for the Record.....................................   219
Rotondo, Mary and Eric
    Statement for the Record.....................................   220
S. 1694, the Yakima River Basin Water Enhancement Project Phase 
  III Act of 2015................................................    57
Sandison, Derek
    Opening Statement............................................    12
    Written Testimony............................................    14
Schwartz, James
    Letter dated June 15 for the Record..........................   221
Schwartz, James
    Statement for the Record.....................................   244
Seguin, Kerry
    Statement for the Record.....................................   502
Sheldon, Jeanne
    Statement for the Record.....................................   503
Siddoway, Robert and Pauline
    Statement for the Record.....................................   504
Sierra Club, Washington State Chapter
    Statement for the Record.....................................   505
State of Washington Department of Fish and Wildlife
    Statement for the Record.....................................   517
Storch, John
    Statement for the Record.....................................   520
Stratton, Kathie
    Statement for the Record.....................................   521
Stratton, Vern
    Statement for the Record.....................................   522
Swart, Alex
    Statement for the Record.....................................   523
Swart, Heidi
    Statement for the Record.....................................   524
Thomas, Joel
    Statement for the Record.....................................   525
Thomas, Kelli
    Statement for the Record.....................................   526
Thomas, Lynne
    Statement for the Record.....................................   527
Trout Unlimited
    Statement for the Record.....................................   528
Walker, Scott
    Statement for the Record.....................................   531
Watts, Jerry
    Statement for the Record.....................................   532
Webster, Callie
    Statement for the Record.....................................   533
Western Lands Project
    Statement for the Record.....................................   534
Western Watersheds Project
    Statement for the Record.....................................   535
WISE Use Movement
    Statement for the Record.....................................   536

 
  S. 1694, TO AMEND PUBLIC LAW 103-434 TO AUTHORIZE PHASE III OF THE 
   YAKIMA RIVER BASIN WATER ENHANCEMENT PROJECT FOR THE PURPOSES OF 
  IMPROVING WATER MANAGEMENT IN THE YAKIMA RIVER BASIN, AND FOR OTHER 
                                PURPOSES

                              ----------                              


                         TUESDAY, JULY 7, 2015

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:09 a.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Lisa 
Murkowski, Chairman of the Committee, presiding.

  OPENING STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR FROM 
                             ALASKA

    The Chairman. Good morning, the Committee will come to 
order. We are meeting today to discuss Senate Bill 1694, which 
is the Yakima River Basin Water Enhancement Project Phase III 
Act of 2015, sponsored by Senator Cantwell.
    As we have discussed in this Committee and as we were just 
having a conversation about, drought conditions prevailing in 
the West, including the State of Washington, are significant. 
For those of us from the Pacific Northwest or the North it is 
quite unusual to be experiencing any level of drought. My 
hometown of Ketchikan in the Tongass Rainforest is short on 
water. People are buying water all the way down to Washington 
State. Certainly we have had many discussions in this Committee 
about the situation down in California, but it is not just 
limited to the Pacific Northwest or to the coastal areas. It is 
clearly west-wide.
    The legislation that we are going to discuss today presents 
an opportunity to build on the success of a significant example 
where water users, Federal and state officials and others, are 
working to ensure the delivery of water where it is needed.
    S. 1694 authorizes the first of three phases of the Yakima 
River Basin Integrated Water Resources Plan, and its goal is to 
ensure sufficient legal authority to achieve an integrated 
approach to water management for the Basin.
    I will ask Senator Cantwell to describe her bill more 
fully, but before I turn to her, there are a couple things that 
I would like us to keep in mind as we consider this 
legislation.
    First, in this bill and in any legislation we consider we 
need to evaluate and fully understand the financial commitment 
expected of our Federal agencies. The Federal Government can 
play a role in addressing water supply needs, but we also need 
to know, up front, what each bill would have us contribute.
    Secondly, it is critical that we have a good understanding 
of local support and any concerns that may exist as well as to 
ensure that state and private involvement is maximized both 
financially and in terms of decision making.
    As I look at those who have come east today to speak to us, 
it looks like a cross-section of interests are represented. I 
appreciate that. I think that will bode well for the discussion 
that we will have this morning.
    Senator Cantwell, thank you for your work on this piece of 
legislation, and I look forward to working with you on it.

 STATEMENT OF HON. MARIA CANTWELL, U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Madam Chair, and thank you for 
holding this very important hearing and for being here this 
morning.
    As you mentioned, both of our states are feeling the impact 
of drought and climate impacts. I know that this legislation is 
an example of how some of the best and brightest are working 
hard on solutions at a local level, so thank you for having a 
hearing on S. 1694.
    Before I start, besides thanking the witnesses that are 
here from Washington, obviously representatives of the state 
and the tribe, the agricultural community and the fishing 
interests of our state, we are also joined by Yakima County 
Commissioner, Michael Leita, and Yakima Nation Council Member, 
Joe Lewis. I thank you both for being here as well.
    S. 1694, the Yakima River Basin Water Enhancement Project 
Act of 2015 is critical for the State of Washington. It ushers 
in a new era of water management for the State, and I believe, 
it is a management model for the entire West.
    This legislation is a major accomplishment for people who 
have been working on this issue for decades. Drought in 
Washington and across the West has caused billions of dollars 
in impacts this year alone, and it is predicted to cost 
billions more in the coming years.
    In a report released last July, the White House concluded 
that confronting climate catastrophes requires taking prudent 
steps now to prevent more severe consequences later. I could 
not agree more.
    As the Yakima Basin faces continued drought and climate 
impacts, the Federal Government has a responsibility to act now 
to prevent future impacts and costs in meeting its legal 
responsibilities in the Basin which include managing extensive 
Bureau of Reclamation projects, treaty and trust 
responsibilities with the Yakama Nation and Federal 
responsibilities in managing lands and endangered species. 
Failure to act now, I think, as mentioned, could have 
catastrophic economic impacts in moving forward. In contrast, 
an ounce of prevention could go a long way.
    Some of the issues here affect some of the most impacted 
agriculture lands and productive agriculture lands in our 
country as well as some of the most important sockeye salmon 
runs in the United States.
    S. 1694 authorizes the initial phase of a long term water 
resources plan for the Yakima Basin and recognizes the 
responsibilities and the imperative to act now. The bill would 
dramatically enhance the sustainability and resilience of the 
Basin, from snow-fed streams in the Cascade Mountains to the 
farms of the Yakima Valley, which are famous for apples, 
cherries, hops and vineyards. The Yakima Integrated Plan is 
designed to provide a balanced approach to long-term water 
supply and environmental issues in the Basin. It will provide 
more dependable water supplies to meet agricultural and 
municipal needs and significantly restore the fisheries and 
ecosystems of the Yakima River and its tributaries.
    The plan was developed through an extraordinary 
collaboration between local stakeholders who are represented by 
the witnesses here today. This work group includes state, 
local, tribal officials, agricultural interests, and 
environmental groups. And I have to say, it is amazing to see 
how much progress they have made working together. They have 
really created a bond which I think is exemplary in keeping the 
task at hand. Working together they have developed an 
integrated approach to managing water that could not be 
accomplished without cooperation. The result is what is before 
us today, a holistic approach.
    Without this plan the Yakima Basin will face continued 
water shortages and economic impacts, estimated by the state 
this year to reach $1.2 billion in crop loss due to drought. 
This summer the Basin is facing unprecedented drought. In some 
cases irrigation districts are delivering only 25 percent of 
normal water supplies. Low stream flows and warm water 
throughout the Basin are also threatening fish, such as 
steelhead and sockeye salmon. Protection of these species is 
critical to our community and particularly important to the 
Yakama Nation.
    Science tells us that drought conditions are likely to 
persist in the Basin in coming years. Low snowpack and heat are 
predicted to intensify with climate change and are likely to 
become the new normal. As such, we must do everything to avoid 
catostrophic impacts later. The Yakima Integrated Plan puts in 
place the necessary steps for the future sustainability and 
resilience of the Yakima Basin.
    The State of Washington is already investing in the Yakima 
Integrated Plan. Just last week the state appropriated $30 
million for the plan after approving $137 million in the last 
budget. In spite of severe budget constraints, the state 
recognizes that investing now will avoid more economic loss in 
the future.
    The Bureau of Reclamation's statutory mandate to manage the 
Basin's dams, hydropower facilities, and irrigation 
infrastructure, and legal requirements to manage stream flow 
for tribal and other needs means that the Federal Government is 
part of the solution. Without an integrated approach in the 
Basin, the Federal Government will face significant challenges 
including litigation costs in meeting responsibilities. So it 
is good to see Mr. Iseman here today and that in his testimony 
he supports an integrated approach, as you say in your 
testimony, which includes water storage, water conservation, 
stream flow management, fish passage, and habitat improvements 
to provide the best opportunities for moving forward.
    S. 1694 does just that. It includes provisions for improved 
infrastructure for water storage and conservation, ecosystem 
restoration and construction of permanent fish passage. Nearly 
every part of this plan will help both farmers and fish in the 
Yakima Basin. Projects will provide water to support the 
region's $3.2 billion agricultural economy while also restoring 
salmon runs that have been blocked for more than 100 years. 
This includes helping to restore one of the largest sockeye 
salmon runs in the lower 48.
    Because of local interests and their willingness to sit 
down to make a plan, I hope this does become a model for 
integrated water management plans and holistic approaches. I 
think it is a new paradigm in water management that could be 
replicated in other parts of the country.
    Here in the Energy and Natural Resources Committee we hear 
of divisive water conflicts in other parts of the West leading 
to gridlock which is ultimately destructive to the economy and 
environment. I think this approach points us down a different 
path.
    I look forward to hearing the witnesses today, and again, I 
thank all of the local individuals who have worked so hard on 
this project at moving it forward to where we are today in this 
legislation of S. 1694. I also want to thank my colleague, 
Senator Murray, for being an original co-sponsor on this 
legislation.
    Thank you.
    The Chairman. Thank you, Senator Cantwell.
    Let us go to our queue of witnesses. I would ask that you 
each limit your comments to no more than five minutes, and your 
full statement will be included as part of the record. Once 
each of you have given your statements, we will have a few 
questions for you.
    We will begin with Mr. Tom Iseman, who is the Deputy 
Assistant Secretary for Water and Science at the Department of 
the Interior. Next is Mr. Derek Sandison, who is the Director 
for the Department of Agriculture with the State of Washington. 
Mr. Urban Eberhart is a farmer and manager of the Kittitas 
Reclamation District. Mr. Michael Garrity is the Director of 
Rivers of Puget Sound and the Columbia Basin for American 
Rivers. Rounding out the panel is Mr. Phil Rigdon, who is 
Superintendent for the Department of Natural Resources with the 
Yakama Nation.
    Gentlemen, welcome to the Committee this morning. Thank you 
for traveling as far as you have. We will lead off with you, 
Mr. Iseman. Welcome.

 STATEMENT OF TOM ISEMAN, DEPUTY ASSISTANT SECRETARY FOR WATER 
          AND SCIENCE, U.S. DEPARTMENT OF THE INTERIOR

    Mr. Iseman. Thank you, Madam Chair, Senator Cantwell. I am 
Tom Iseman, Deputy Assistant Secretary for Water and Science at 
the Department of the Interior.
    I thank you for the opportunity alongside our partners to 
provide the views of the Department on S. 1694, legislation to 
implement Phase III of the Yakima River Basin Water Enhancement 
Project or YRBEP. I'm joined by Wendy Christensen of 
Reclamation's Area Office in Yakima, who can assist with any 
technical questions that come up, and my written statement has 
been submitted for the record.
    YRBEP, Phase III, results from decades of congressionally-
sanctioned work in the Yakima River Basin and the collaboration 
of the Bureau of Reclamation, Washington State Department of 
Ecology, the Yakama Nation, irrigation districts, local 
governments, nongovernmental organizations and several other 
state and Federal agencies. Along with the project's previous 
two phases, Phase III as authorized in S. 1694, aims to further 
the goals of protecting, mitigating and enhancing fish and 
wildlife habitat, increasing operational flexibility to manage 
in stream flows to meet ecological objectives and improving the 
reliability of the water supply for irrigation, municipal and 
domestic uses in the Yakima Basin.
    This legislation will facilitate construction of fish 
passage at Chelan Dam and at least one other Yakima Basin 
reservoir. Restoration of fish passage in the Yakima Basin is 
extremely important and culturally significant to the Yakama 
Nation and highly valued by Federal and state fish agencies.
    S. 1694 also allows for the irrigation districts to 
construct a facility to access a significant amount of water 
stored in the inactive pool of the Kachess Reservoir providing 
junior irrigation districts the additional water needed to 
increase their supply in drought years from possibly as low as 
20 to 30 percent to up to 70 percent of their supplies. 
Further, this bill allows additional funds for water 
conservation on the Yakama Reservation, the largest irrigator 
in the Basin.
    And in addition to a host of further benefits to water 
users in the Basin, S. 1694 enables the Secretary of the 
Interior to accept cost share for many of the authorized 
projects allowing their completion at a significant savings to 
the Federal budget. This kind of fiscal collaboration is 
particularly noteworthy as the Government strives under tight 
budgetary constraints to address the challenges posed by 
drought in a changing climate.
    S. 1694 has been introduced after many years of 
collaboration among a diverse group of stakeholders, who have 
traditionally held opposing views, but are now cooperatively 
working together to achieve real, tangible results to address 
these challenges.
    The Department appreciates the efforts of Senator Cantwell 
and the Committee staff to address concerns identified in 
earlier legislative drafts. As stated in my written statement 
we would like to continue to refine some specific provisions in 
the bill to clarify the Department's authorities and address 
potential problems with interpretation. We appreciate you and 
your staff's willingness to engage with us on those issues.
    In closing, we recognize that this bill takes into account 
the affects of multiple projects and activities working in 
unison over the long term to improve the health and vitality of 
the Yakima River Basin, to the benefit of communities, 
agriculture and the environment.
    I want to thank the working group, the partners who are 
here today and commend them for their work, their collaboration 
over time to bring this plan to fruition and the efforts, their 
continuing efforts, to move these projects forward.
    And I also want to thank you, Senator Cantwell, for your 
leadership on this bill.
    With that, Madam Chairman, the Administration is pleased to 
support the integrated plan and the goals of S. 1694, and I'm 
happy to answer your questions at the appropriate time.
    [The prepared statement of Mr. Iseman follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    STATEMENT OF DEREK SANDISON, DIRECTOR, WASHINGTON STATE 
                   DEPARTMENT OF AGRICULTURE

    Mr. Sandison. Thank you.
    Chairman Murkowski, Ranking Member Cantwell, thank you for 
the opportunity to testify in support of Senate Bill 1694. 
While I am currently the Director of the Washington State 
Department of Agriculture, until recently I served as the 
Director of the Washington State Department of Ecology's Office 
of Columbia River where I led the state's involvement in the 
collaborative effort that is addressed in S. 1694.
    The Washingtonians recognize that there's a dry side of our 
state, Eastern Washington, and a wet side of our state, Western 
Washington. But this year both Eastern and Western Washington, 
like many other parts of the West, are suffering from drought. 
These conditions are creating great challenges for our farmers, 
our fisheries and for our communities. However, throughout 
Washington a number of efforts are underway to respond to those 
challenges. For example, the unique collaboration that has 
emerged in the Yakima Basin focused on developing a vision for 
a future where there is water for farming, water for fish, 
water for our communities, even in drought years. S. 1694 is a 
vital step in making that possible.
    The Chairman. Thank you, Mr. Sandison. Welcome.
    Mr. Sandison. By way of background the Yakima Basin is an 
approximately 6,000 square mile drainage basin in South Central 
Washington. It's a source of population for about 360,000 
people, and it's home to the Yakama Nation. The Yakima Basin 
contributes over $3 billion annually to the agricultural 
economy of the State of Washington and to the nation and 
exports many of its farm products to the ports of Seattle and 
Tacoma. It is also important to recognize that historically the 
Yakima Basin was the second largest producer of salmon and 
steelhead runs in the entire Columbia River system.
    Since 1905 the Bureau of Reclamation has managed surface 
water flows in the Yakima Basin. Reclamation operates five 
reservoirs with a total capacity of about a million acre feet 
which is about a third of the annual runoff, on average, in the 
Yakima Basin. The Yakima Basin is heavily dependent on the 
Cascade Range snow pack to supply water to the semi-arid lower 
basin during the summer months. In other words, the snowpack is 
our sixth reservoir.
    Management of water in the Yakima Basin has historically 
been contentious. The surface water resource of the Yakima 
Basin are over-appropriated and have been undergoing court 
adjudications since 1977. The state closed the Yakima Basin to 
additional ground water rights in the 1990s. Frequent droughts 
over the last several decades have demonstrated the 
vulnerability of the Yakima Basin's water supplies. During 
droughts in 2001 and 2005 and now in 2015, the irrigation 
districts served by the Bureau of Reclamation received or are 
receiving only about 40 percent of their supply.
    Aquatic resources of the Yakima Basin have also continued 
to suffer. Salmon and steelhead runs that historically numbered 
around 800,000 fish declined to about 8,000 fish by the 1980s. 
Several stocks were extirpated and the Basin's steelhead and 
bull trout are currently listed as threatened species under the 
Endangered Species Act.
    In 2009 the State of Washington and the Bureau of 
Reclamation began collaboration with the Yakama Nation and 
Basin stakeholders to formulate a comprehensive strategy to 
address the Basin's critical resource needs. That collaboration 
builds on the 1979 Federal Yakima River Basin Water Enhancement 
Project Act, or YRBWEP, and the 1994 Phase II amendments to 
that act. The strategy took shape in mid-2011 when consensus 
was reached on the Integrated Plan.
    The Integrated Plan is being proposed as Phase III of the 
YRBWEP. The Integrated Plan proposes major ecological 
restoration of the Yakima Basin through measures such as 
construction of fish passage at all in-basin reservoirs and 
implementation of mainstem and tributary habitat enhancements.
    The Integrated Plan also calls for substantial improvements 
in water supply for both in-stream and out-of-stream uses. 
Efficiency of existing use will be improved through expanding 
water markets and investing in additional agricultural 
conservation.
    The objectives of the Integrated Plan cannot be met without 
significant improvements in water storage. Additional capacity 
in the form of modified and new storage facilities will be 
needed to provide drought relief for existing irrigators in the 
Yakima Basin, secure water supplies for municipal needs and 
adequate water for fish migration.
    The importance of expanding water storage capacity is 
underscored by climate modeling that predicts substantial 
reductions in snow pack depth and duration, in other words, 
exactly what we're seeing in 2015.
    In 2013 Washington Governor Jay Inslee signed legislation 
that authorized the Department of Ecology to implement the 
Integrated Plan in conjunction with Reclamation and in 
collaboration with the Yakama Nation and Basin stakeholders. To 
date, the Governor and the legislature have made over $160 
million in capital investments to meet the multiple goals of 
the Integrated Plan, so we believe S. 1694 represents a similar 
commitment by our Federal partners to this special and powerful 
collaborative effort.
    We're deeply appreciative of your consideration of this 
legislation and very much appreciative of Senator Cantwell's 
leadership in this area.
    Thank you very much.
    [The prepared statement of Mr. Sandison follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]    
       
    The Chairman. Thank you, Mr. Sandison.
    Mr. Eberhart, welcome.

    STATEMENT OF URBAN EBERHART, GENERAL MANAGER, KITTITAS 
                RECLAMATION DISTRICT, AND FARMER

    Mr. Eberhart. Thank you.
    Chairwoman Murkowski and Senator Cantwell, my name is Urban 
Eberhart, and I'm the manager of the Kittitas Reclamation 
District in the irrigation district serving 60,000 acres of 
prime farmland in the Yakima River Basin. I'm also a farmer. I 
was raised on our family farm near Ellensburg, and I'm still 
growing apples, pears and hay in Badger Pocket in the Kittitas 
Valley.
    I've been working on water issues in the Yakima Basin, have 
been following the Yakima River Basin Water Enhancement 
Project, ever since I went to my first Yakima Enhancement 
meeting with my father in 1979. I worked on the 1994 Yakima 
Basin Phase II legislation prior to its passage by Congress. It 
was intended to be an interim step to additional storage.
    In the Basin when we were asked to implement conservation 
measures authorized in the act we were told if we still could 
not meet the water supply needs of the Basin through 
conservation after they were implemented then we could come 
back and ask for additional storage.
    We've now created the Basin-wide Integrated Plan that is an 
example for other river basins throughout the country to look 
to. It is a template for others to follow on how diverse 
interests can come together to prepare a pathway for surviving 
drought and climate change and to impacts into the future.
    I support the enactment of S. 1694 authorizing Phase III of 
the Yakima River Basin Water Enhancement Project. The Yakima 
River Basin is one of the most productive agricultural areas in 
the nation. Principle crops grown in the Basin include fruit, 
vegetables, forage, hops and mint with many highly productive 
dairies, fruit packaging plants and other related businesses 
and industries tied to our Basin's bountiful harvests. These 
industries in the Basin alone produce more than $1.8 billion in 
crops and $1.4 billion in food processing sales.
    The KRD is a fully proratable irrigation district which 
means our district is one of several (like the Roza, Wapato and 
Kennewick districts). We are receiving 44 percent of our supply 
this year. The farmers in the Garrity will be out of water the 
first week of August instead of the middle of October. Our 
water will be cut off two and a half months earlier than 
normal.
    The Roza irrigation district was forced to shut down its 
entire water delivery system for three weeks during the prime 
growing season this year.
    A critically important and creative component of S. 1694 
includes providing innovative authorities for our non-Federal, 
proratable districts to be able to design, construct and 
maintain water storage access facilities contemplated by the 
first phase of the Integrated Plan. The bill would authorize 
the Secretary of the Interior to enter into long term 
agreements with the proratable irrigation entities in the 
Yakima Basin including KRD to plan, design, construct and 
maintain projects like the Kachess Drought Relief Pumping Plant 
on Federally-owned lands. I believe this effort could be the 
first of its kind and is innovative enough that other areas of 
the West could benefit from similar arrangements.
    Under S. 1694 the proratable districts in the Basin would 
enter into long term agreements with the Secretary and 
Reclamation to provide non-Federal ownership, management and 
financing in the construction of these facilities bringing 
emergency drought relief water supplies to the Basin quicker 
and with no burden on the Federal budget.
    We have some additional suggested improvements to the 
language of S. 1694 as introduced to further clarify the 
provisions in Section 1214, and we look forward to working with 
the Committee on improving this section.
    Another important provision in S. 1694 deals with restoring 
water flows in the tributaries in the Basin. We have found a 
way for farmers and fish to help each other. The pilot concept 
implemented in the Manastash Creek project converted 3.2 miles 
of the KRD canal to a pressurized pipeline conserving over 
1,200 acre feet of water annually that is used to keep water 
flows in the creek during critical fish migration periods.
    The Manastash project resulted in multiple in-stream and 
out-of-stream benefits that conserved water, increased in-
stream flow in the lower Manastash. Benefits in addition to 
flows for fishing include reduced seepage, improved local 
irrigation system reliability and increased on-farm 
efficiencies and water conservation through the use of 
pressurized sprinkler systems. Farmers are still farming and 
the creek is now flowing opening up habitat for salmon and 
steelhead species in the process.
    In closing, I believe we have a good start with S. 1694. 
And as the irrigation districts in need of additional dry water 
supplies, we are stepping up to the plate in financing and 
constructing new water supply infrastructure in innovative 
ways. The State of Washington has provided over $130 million 
over the past two years to assist in implementing the 
Integrated Plan. Our proratable irrigation districts are 
contemplating non-Federal investments to build new water supply 
infrastructure.
    We look forward to the enactment of S. 1694 to assist in 
implementing the Plan, improving habitat for fish and wildlife, 
and creating new emergency storage water supplies for the 
future of the Yakima River Basin.
    Thank you for the opportunity.
    [The prepared statement of Mr. Eberhart follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Mr. Eberhart.
    Mr. Garrity, welcome.

 STATEMENT OF MICHAEL GARRITY, DIRECTOR, RIVERS OF PUGET SOUND 
            AND THE COLUMBIA BASIN, AMERICAN RIVERS

    Mr. Garrity. Thank you.
    Thank you, Chairwoman Murkowski, Ranking Member Cantwell 
and members of the Committee. Thank you for the opportunity to 
testify and share American Rivers' support for the bill before 
the Committee, S. 1694, the Yakima River Basin Water 
Enhancement Project Phase III Act of 2015.
    American Rivers protects wild rivers, restores damaged 
rivers and conserves clean water for people and nature. And 
since 1973 we have protected and restored more than 150,000 
miles of rivers through advocacy efforts and on-the-ground 
projects.
    My name is Michael Garrity. I'm Director of Rivers of Puget 
Sound and the Columbia Basin for American Rivers, so I'm based 
out of Tacoma, Washington. I've worked on long standing issues 
of water supply reliability and fishery restoration in the 
Columbia and Yakima Basins for about 15 years.
    Just as for many Western river basins, controversy is no 
stranger to the Yakima, and American Rivers has been part of 
some of those controversies. Today is different. We join others 
in testifying in support of S. 1694. We're not asking you to 
choose sides. We're asking you to help us work together for an 
innovative, integrated plan to support the Yakima Basin's fish, 
farms, families and forests.
    The Yakima Plan, at its heart, is a set of pragmatic 
actions that address the Yakima Basin's major water supply and 
ecosystem challenges through seven integrated elements. The 
plan is envisioned to be completed over the next 30 years in a 
way that helps the Basin's major stakeholders. It authorizes 
the Initial Development Phase of the plan, the projects that 
make the most sense to do and are ready to do over the next ten 
years.
    We support the entire 30-year Yakima Plan. However, we note 
that some projects will be subject to environmental and 
economic review that may make them infeasible or uncover issues 
that could cause us to reconsider support.
    The Yakima Plan stitches together many elements, some 
previously authorized in Federal legislation and some 
undertaken by non-Federal actors. S. 1694 addresses the parts 
of the Initial Phase which require Federal authorization and it 
clarifies authority where that authority may be ambiguous.
    Some of the most important elements of the Initial Phase 
are construction of the Plan's first major water surface 
storage projects such as the Kachess Dry Relief Pumping Plant 
and the Keechelus to Kachess Conveyance Facility, construction 
of fish passage projects both upstream and downstream at 
Reclamation reservoirs, increasing storage at Cle Elum 
reservoir by three feet, continued water conservation and 
efficiency projects, continued and expanded habitat projects to 
benefit salmon, steelhead and bull trout and ground water 
recharge programs.
    Now I'll discuss American Rivers' perspective on the bill 
in more detail. We look for opportunities to advocate for new 
ways of doing business to promote healthy rivers in a variety 
of settings including water supply and water management. The 
Yakima Plan in S. 1694 fosters innovative and integrated water 
management and watershed restoration. Specifically the plan and 
the bill embrace integrated approaches including making better 
use of existing infrastructure before building new reservoirs, 
embracing water conservation, conjunctive use of ground and 
surface water, water markets and viewing problems and solutions 
from a watershed perspective. It also embeds fishery 
restoration into water management and makes fishery restoration 
a co-equal purpose with water supply reliability.
    It's also innovative. New approaches are needed in solving 
Western water problems. The art of fighting water issues to a 
science standstill must end given the present threats to 
ecosystems and water supplies.
    American Rivers and other conservation groups have long 
fought new Federal water projects, in part due to Federal 
subsidies that have provided artificial incentives for their 
construction. To their credit the Yakima Irrigation Districts 
have proposed and the bill authorizes private financing for 
water supply projects. We strongly support this approach, and 
we believe it addresses the criticisms that have been raised 
about some of the Plan in general from a Washington State 
University Economic Study because the irrigators are taking on 
the risk themselves rather than the taxpayers. The plan also 
innovatively links land conservation with management of 
Reclamation reservoirs, and it addresses not only drought but 
the impacts of climate change over the long term. As this year 
demonstrates with its low snow pack, actions taken for drought 
response will also help us as the climate warms.
    There are a number of details and bill elements that we 
hope will be refined through the legislative process. We hope 
to work with bill sponsors and this Committee to address 
lingering substantive issues and move S. 1694 forward.
    In conclusion we believe that the bill is a major step 
toward a workable 21st century framework for water management 
in the West and that it offers major environmental benefits for 
the Yakima River Basin. For these reasons we urge you to 
support S. 1694, strongly support it, and are looking forward 
to working with you to pass this legislation.
    Thanks.
    [The prepared statement of Mr. Garrity follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
          
    The Chairman. Thank you, Mr. Garrity.
    Mr. Rigdon, welcome.

STATEMENT OF PHIL RIGDON, SUPERINTENDENT, DEPARTMENT OF NATURAL 
                    RESOURCES, YAKAMA NATION

    Mr. Rigdon. Well, thank you, Chairwoman Murkowski, Ranking 
Member Cantwell.
    I'm Phil Rigdon. I oversee the Department of Natural 
Resources for the Yakama Nation, and I'm also a member of the 
tribe.
    Thank you for this opportunity to testify for the Yakima 
Basin Water Resource Management Plan and on Senate bill 1694. 
We greatly appreciate Senator Cantwell's leadership on this 
important issue and legislation.
    The Yakama people have lived in the Pacific Northwest since 
Time immemorial. When we entered into the Treaty of 1855 we 
ceded 12 million acres of land to the United States. Most of 
that land, that would now describe Central Washington, in that 
treaty the United States guaranteed our people right to have 
and harvest salmon and other natural resources both on the 
reservation and in off-reservation use on custom fishing 
grounds.
    Perhaps no one has ever more accurately described the 
importance of salmon to my people than the U.S. Supreme Court 
Justice and former Attorney General, Joseph McKenna, who--for 
an eight-one majority, the landmark decision of the U.S. versus 
Winans in 1905, stated that salmon were not much less necessary 
to the existence of Winans than the atmosphere they breathe. 
That decision established the reserved right doctrines of 
Indian Treaty law.
    At the time of the treaty there were often 12 to 15 million 
salmon returning to the Columbia River Basin. In some years 
that figure approached 30 million returning salmon. The Yakima 
Basin was second only to the Snake in the fish it contributed 
to the Columbia every year. Salmon are not only an integral 
part of the Indian people, but they have been and are a major 
part of the economy of the Columbia Basin and provide a 
livelihood and means of recreation for tens of thousands of 
non-Indians as well.
    As a result of the hydro dam, over fishing, destruction of 
habitat, including dewatering streams for the benefit of the 
irrigation by the early to mid-part of the 20th century, salmon 
runs that were in drastic decline with the returning numbers 
reduced from millions down to thousands while the Boldt 
decision and Belloni decisions of the 1960s and 70s confirmed 
our authority of self-regulating Treaty tribe with rights to 
half the fish in the Columbia River Basin and as co-managers of 
the resources half of nothing is nothing. Rather than waiting 
for our rights and resources to be restored, we have taken the 
active role in successfully rebuilding diminished runs and 
guaranteeing the existence of our Treaty fish.
    In the Yakima Basin, the state fisheries agencies that 
basically had given up at one point. The Yakama Nation took a 
different approach. We spoke for those species that cannot 
speak for themselves. The Yakama Nation took the lead in 
securing a sweeping series of amendments from the Northwest 
Power Act and to make fish and wildlife an equal priority. We 
developed a scientifically-based program needed to restore runs 
from modern fish screens and ladders. We have worked 
successfully with farmers and local conservation districts to 
remove passage barriers and restore habitat. We began 
supplementing runs with a scientifically-based hatchery 
program. Our goal was to restore historically present stocks of 
salmon and other species of interest to the Yakima Basin. This 
includes reintroduction of three species that were extirpated 
from the Yakima, the Coho, Summer Chinook and Sockeye Salmon. 
This has led to a number of returning fish increasing from 
several thousand total adults in the early 1980s to over 25,000 
for each of the past six years and a modern record number of 
50,000 adults returned in 2014. Our effort has led to 
restoration of salmon fishing seasons for Indians and non-
Indians alike.
    After opposing each other in court for decades the tribes 
and the irrigators, environmental groups, the state and local, 
county governments rose up through cooperation and sitting down 
together and compromising we could save the salmon while 
simultaneously having a vibrant agricultural based economy. 
This successful history of cooperation has led us here today.
    In 2015, in the midst of the most serious drought in 
decades, we're able to supplement stream flows by working with 
the Kittitas Reclamation District to use their canal to deliver 
water to fish streams. The spirit of cooperation exemplified by 
the Yakima Basin Integrated Plan gives us hope going forward to 
see full restoration of salmon runs and other natural resources 
vital to the Yakama people's needs while providing the 
sustainability to the agricultural sector.
    Our work has shown some success, but the remaining 
challenges are great and require us to increase the scope of 
our efforts. Most of the best cold water habitat in the Yakima 
Basin remains blocked by impassable storage dams and many 
impassable irrigation diversions. The habitat is mostly 
publicly-owned and has relatively pristine habitat and stream 
flow conditions. As we face growing impact of climate change, 
restoration of salmon access to these higher elevation areas 
will be critical.
    I am pleased to say the state is now a full partner with 
the Yakama Nation developing and implementing a plan to restore 
salmon. The coalition you see before you today represents a 
remarkable collaboration among long-time adversaries who have 
come together to develop a package of solutions to the big 
problems facing the Yakima Basin.
    With the help of Congress we will succeed in this worthy 
endeavor.
    Thank you.
    [The prepared statement of Mr. Rigdon follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Mr. Rigdon.
    I appreciate the comments and the testimony from each of 
you this morning.
    It is not very often that we have a whole panel that is in 
unison about a bill that we have in front of us which begs the 
question who opposes this? It is not possible that we could be 
sitting here having a discussion about fish and water and not 
have some opposition out there. So I would like a little bit of 
perspective here.
    You have hit on it, Mr. Rigdon. There has been a history 
here, decades, where you have been working against one another 
and now we have come to this place where there is clearly a 
very collaborative effort going on. That is appreciated. We 
always like it when you come to us with solutions. But in terms 
of any pockets of resistance, there have been a couple of you 
that have mentioned that there needs to be some fine tuning to 
the bill. We need to work with some language here and some 
interpretation, some department authorities. But are there 
pockets of resistance that are out there?
    I think, Mr. Garrity, you mentioned in your testimony that 
expansion of the Bumping Reservoir could be controversial 
because it would impact homes that are occupied by local 
critics. What opposition will we encounter with this or is this 
truly one of those measures where, because of the years of work 
and the collaborative nature, we have eliminated most of the 
criticism here?
    Mr. Garrity. I think that the bill is designed to focus on 
the first ten years of the plan, the Initial Development Phase, 
and it authorizes those projects only. And those projects are 
relatively uncontroversial on the water storage side, mostly 
the water storage projects that are controversial within the 
plan. There's some opposition among some homeowners around Lake 
Kachess that exist. So it's not--not everyone likes the Initial 
Development Phase necessarily, but like I mentioned in my 
testimony, it includes the projects that are most ripe for 
implementation and the least controversial of the suite of 
projects.
    Another thing I mentioned in my testimony this morning is 
that there's been some criticism of the plan for--and the water 
storage projects in particular as potentially expensive for 
Federal and/or state taxpayers. And the way that Kachess and 
the Keechelus to Kachess Conveyance Project would be financed 
it basically renders that argument mute because the irrigators 
or other water users would pay for those projects and finance 
them themselves.
    The Chairman. Let me ask then on the cost side of that 
because I mentioned in my opening remarks that that is 
something that we are looking to is what will the expense be?
    I think it was you, Mr. Sandison, who mentioned the state 
had contributed about $160 million so far under the Integrated 
Plan. I think I heard somebody else say, maybe it was you, Mr. 
Eberhart, $130 million. So the state's participation is in that 
range.
    What do you estimate the state contribution towards the 
project proposed under the legislation will be and again, when 
we are talking about cost, recognizing that we have a series of 
phases here? What are we looking at realistically?
    Mr. Sandison. Chairman Murkowski, so I'll respond.
    The Initial Phase which is considered the first ten years 
of the Integrated Plan, this is a 30-year project. We've 
divided the project up into three 10-year phases.
    In the first phase the estimated cost for the entire 
project is about $900 million.
    The State of Washington in 2013, the state legislature in 
2013, passed governor request legislation that committed the 
state to up to 50 percent of the total cost of the Integrated 
Plan over the 30-year period.
    The--if we go back to the first phase and that $900 
million, the biggest, single chunk of that would be the 
Kachess, Lake Kachess projects, the water storage project and 
the Associated Conveyance System. And that's the project that 
the irrigators have indicated they're willing to step up and 
arrange financing for it and pay for it. So not quite half, but 
close to half, of the total cost of the first phase is 
represented by that commitment.
    The largest single project, other than the water supply 
project, is the fish passage project at Lake Cle Elum. The cost 
estimate, Bureau of Reclamation's estimates are at about $125 
million. And again it's all anticipation that the state would 
manage half of that or the cost of that project.
    So the exact number that was used in looking and evaluating 
the current legislation but it was in that neighborhood of, I 
think, about $140 million on the Federal side, again, matched 
with state money and with irrigator finance projects.
    The Chairman. Mr. Iseman, is that your understanding in 
terms of how it would break down as well on the Federal side?
    Mr. Iseman. Yeah, those are roughly comparable to our 
numbers, about looking at $900 million to $1 billion in 
infrastructure investment in total. Infrastructure as well as 
habitat and restoration, acquisitions, conservation, we're 
looking at about $350 to $375 million, potentially, for the 
Federal side of that.
    One of the things, as we talked about in the testimony, 
that we find impressive or remarkable about this partnership, 
is the efforts to look at innovative ways of financing this 
including having the state step up as they have and also 
looking at other ways to bring private sector and other 
partners on board to finance parts of these projects.
    And so, you know, there's a significant investment looking 
forward. But we believe that through these partnering and 
innovative financing mechanisms that we can get some of this, 
some of these, activities accomplished.
    The Chairman. Thank you.
    Senator Cantwell.
    Senator Cantwell. Thank you, Madam Chair.
    Well, Mr. Iseman, we have already had a line item for the 
Yakima Basin for several years now, correct?
    Mr. Iseman. Correct.
    Senator Cantwell. As the agency, how would you describe it 
best met the Federal obligations to try to mitigate the impacts 
and to manage the oversight of irrigation and conflict that is 
there?
    Mr. Iseman. Could you rephrase the question, Senator?
    Senator Cantwell. How would you characterize the line item 
and the----
    Mr. Iseman. Right.
    Senator Cantwell. Responsibility we have to our partners?
    Mr. Iseman. Right. Right. So we do have a line item for the 
YRBEP activities, the Yakima Basin activities. A lot of it is 
for what we've done historically through the first phases of 
this partnership. We're also starting to invest more in the 
newer elements that are a part of this first phase of the 
Integrated Plan.
    The total amount is about $12.8 million right now, and we 
have made some increases over the last several budget requests. 
The way we're looking at it is that we need to continue to make 
the investments to keep these projects moving forward, and 
that's the way we're thinking about our budget request.
    Senator Cantwell. Would you say that your agency, the 
Department of the Interior, might worry most about those 
Federal responsibilities as it relates to the Bureau of 
Reclamation and on irrigation and hydro and things of that 
nature, in responsibilities, trust responsibilities, to the 
tribe that someone else in the Federal Government might be more 
concerned about the state or Mr. Eberhart's issues about 
economic damage and crop loss?You may not be the agency for 
that information.
    Mr. Iseman. Right.
    Senator Cantwell. Is that right?
    Mr. Iseman. But I think that's right that--and one of the 
things that we have tried to do is bring the entire Federal 
family together because we know multiple Federal agencies have 
an interest in elements of this Plan including the U.S. 
Department of Agriculture and other potential partners that can 
be contributing to activities under the Integrated Plan.
    And so, you're right. We focus on the elements that are 
most closely related to our water supply obligations and treaty 
responsibilities, and we're trying to bring in these other 
partners, including other Federal agencies that can make 
contributions towards the Plan.
    Senator Cantwell. So doing nothing is not free, I guess is 
the best way. Is that correct?
    Mr. Iseman. Doing nothing is not free?
    Senator Cantwell. Right.
    Mr. Iseman. That's right.
    Senator Cantwell. We will incur costs.
    Mr. Iseman. Oh, absolutely. I mean, that's one of the 
things that I think is most important about this Plan is that 
we're looking into the future, and we face tremendous risks due 
to drought, and we need to make investments now. This Plan is 
identifying the activities and how we're going to fund them in 
partnership to build resilience to drought, and there's a lot 
of risk if we do nothing, absolutely.
    Senator Cantwell. Thank you.
    Mr. Eberhart, you, I think, mentioned the $3.2 billion of 
economic activity associated with the Basin, related to 
agriculture. Is that Yakima County and----
    Mr. Eberhart. It would be the Yakima Basin and it would be 
all the agricultural commodities that are produced directly at 
the farm gate and then all of the add-ons that are done to 
process them.
    Senator Cantwell. How many counties would you say?
    Mr. Eberhart. Oh, that is Yakima, Kittitas and Benton, 
three counties, yes.
    Senator Cantwell. So three counties produce $3.2 billion 
worth of economic activity from agriculture on an annual basis?
    Mr. Eberhart. And a lot of exports.
    Senator Cantwell. Yes, I know, it is pretty impressive. I 
definitely do not want to see the drought impacts, the lack of 
water, negatively impact that.
    Mr. Garrity spoke to the fish issue, but I guess one of the 
things that it is safe to say is that for part of this project 
you guys did not hang out together. Is that right? [Laughter.]
    Yet I feel like, while you didn't use duct tape, it is a 
little bit like Apollo 13, like you get this critical moment 
and you are like, we have to do something, right? We have to 
come up with a better plan. But what made that happen? What 
brought you all to come together on things that you may have 
been fighting each other on in the previous decades?
    Mr. Garrity. Thanks, Senator Cantwell. I think it was a 
confluence of events that came through a process. That, I 
think, sort of, came out of the original YRBEP legislation and 
then followed by a study of a large reservoir called Black Rock 
that concluded in 2008. And that project turned out to be 
infeasible because of expense and because of some issues in 
terms of its effect on contaminated ground water underneath the 
Hanford Nuclear reservation and as well as operating costs. And 
multiple stakeholders including, I think, all four of us on 
this, from the state, on this panel came together and had 
similar comments on where we should go forward with that.
    And Mr. Sandison, when he was Director of the Office of the 
Columbia River, came up with a supplemental component to the 
storage study that was underway at that time that included, 
that basically laid out the initial, sort of, a general 
skeleton of the plan that the bill would help carry out.
    I think that is just really a pragmatic recognition on the 
part of the Yakama Nation and the irrigation districts and 
American Rivers, Trout Unlimited, the Wilderness Society, 
National Wildlife Federation, that we needed a practical 
solution that addressed the urgent needs of the fisheries and 
river health in the Basin.
    Senator Cantwell. It seems to me that part of the issue 
here is that while it might have been great to have a solution, 
something that was, let us just say, simpler, I guess is one 
way to describe Black Rock and the concept about, here is an 
easy solution. Let's just add more storage.
    Where we have ended up today is something that is much more 
integrated and much more elaborate in trying to solve the 
problem which, I think, is something to be recognized on a 
national basis, not just because it is holistic, although I 
definitely believe in that. That is what you represent, each of 
your interests. But the fact that the Plan says there are some 
things you can do today, and we should do those. There are some 
things that we can use that are market driven forces we should 
try to implement. Then the whole plethora of everything from 
conservation to utilization to increasing storage capacity.
    So I don't know if you have a comment on that about that 
issue of the complexity of an Integrated Plan providing so much 
of the solution.
    Mr. Rigdon. Thank you.
    I think the whole context, what we're talking about, is the 
complexity of the Yakima Basin in its own right. We have the 
whole gamut. We have a tribe that's fighting for its Treaty 
rights and stream flow. You have the irrigators and the junior 
water right holders and the conservation and the needs aren't 
met. And we've gone through--the last 40 years realizing that 
the tribe and the irrigators aren't going to meet those things.
    We've come together as a community to say for us to succeed 
we've got to work together instead of--and take on these 
complicated challenges. And I think that's the real important 
part.
    Black Rock was an idea of pumping water from the Columbia 
that has its own series of issues that the tribe argues and 
fights on actually, but the idea let's look in house, let's 
find the solutions and let's work to get to these things. There 
was a real important part of that is that the tribe and Roza 
sat down and we actually sent a letter together which is--we've 
been adversaries for, you know, probably since Time immemorial 
in its own right. And we signed that letter saying we've got to 
change and these principles of what really needs to happen. And 
having Ecology and the Bureau of Reclamation willing to take on 
that challenge and be a part of that conversation was really an 
integral part of what happened.
    Senator Cantwell. Thank you.
    The Chairman. You have mentioned that this Integrated Plan 
and the approach, the collaborative approach, can be viewed as 
a model in other areas. The word template has been used, but we 
also recognize that it is pretty tough to take a one size fits 
all approach to pretty much anything around this country 
because our regions are different, our needs are different and 
it complicates it a little bit.
    How unique or what aspects of what you have put together 
with this Integrated Plan are unique to the Yakima Basin and 
thus would not be as easily replicated in other regions? For 
instance, look at the situation down there in California. They 
are clearly struggling for answers. How should they deal with 
fish and agriculture needs? We are trying to draft legislation 
that will be helpful to them.
    Can you identify either any areas that are particularly 
innovative that help you with the approach that you have taken 
or that are so unique to the Yakima Basin that that is one of 
the things that has allowed this to gel? Mr. Iseman, you look 
like you want to jump in here.
    Mr. Iseman. Well I had a few thoughts on that. There are 
some unique aspects to what we're seeing in the Yakima, and one 
of them that I'd appreciate comments from the rest of the 
partners is about how their relationship has developed over 
time. But clearly they've been working together for a long 
time, and I think that's been essential to getting them to the 
point where we are with the Integrated Plan and what we're 
talking about today.
    But a few of the other things that are important. One is 
looking at a watershed scale and thinking about multipurpose 
objectives. And as Senator Cantwell said, it's easy to think 
about a single solution but oftentimes that won't meet multiple 
objectives at a watershed scale. And so thinking at this scale, 
I think, is very important.
    Looking at the long term to how they build drought 
resilience. You know, even this plan maps out 30 years, let 
alone these investments will be paying dividends for decades 
beyond that. And so thinking that long term drought resilience, 
oftentimes, we see places that are caught by surprise and maybe 
more reactive. So that's an important element.
    And also the funding strategy is always a challenge in 
terms of how you fund things. And having the state step up as a 
partner, a lot of the local irrigators being willing to invest 
and other partners. Finding ways to bring the resources 
together to accomplish the objectives of the plan, those are 
some of the key lessons that I take from this.
    And Bureau of Reclamation does try to foster this kind of 
collaboration through Basin studies is one of the activities 
where we try to bring stakeholders together to think about long 
term challenges and ways to address them. But I would say that 
this partnership is really mature and unique in terms of their 
accomplishments.
    The Chairman. Does anyone else want to weigh in? Mr. 
Sandison?
    Mr. Sandison. Yes, I agree with Mr. Iseman's assessment 
that we looked at a watershed scale. I think one of our biggest 
hurdles to overcome in the first place was getting fundamental 
agreement on what the problem was. In the past we'd looked at 
water supply, what has been mentioned of a water supply project 
that was considered early on, but this, sort of, just add water 
approach to solving the problems of the Basin wasn't going to 
work. That we needed to understand that you had a whole suite 
of issues, problems that needed to be solved in the Basin and 
recognizing how those are interconnected was important in terms 
of general recognition of what the scope of what needed to be 
done to correct the problems of the Basin.
    The other thing, and this speaks to the people that have 
been involved in the effort in Yakima was a willingness to, 
kind of, to set aside narrow, self interests and look to the 
broader good of the Basin and kind of, the recognition that--
because you're not going to get that. Any individual interest 
in the Integrated Plan is not going to get everything they 
want, but they're going to get a lot of what they want. And at 
the same time others will get a lot of what they need or want.
    And it was, sort of, this quest for a win/win sort of 
relationship in the Basin and achieving harmony rather than 
going to court and spending decades fighting in court. I think 
that was an important element of the success in putting this 
together.
    The Chairman. Good. Others? Mr. Garrity?
    Mr. Garrity. Well I'd add that I think the combination of 
state and Federal investment and readiness to help this process 
forward was really helpful. That the state has started the 
Office of Columbia River in 2006 which allowed some seed 
funding and room for creativity and collaboration on the state 
side. As Mr. Iseman mentioned, the Secure Water Act and the 
Basin study program was critical in basically matching some 
state investment early on that helped move the process forward.
    The Chairman. I do not have any further questions for the 
panel, but I know that Senator Cantwell wants to continue.
    So thank you.
    Senator Cantwell. Thank you, Madam Chair.
    Just to that point, we obviously all, on a West-wide basis 
see those regions, California, Oregon, others, struggling with 
this. Do you think that our previous efforts on management 
within the region taught us a lot because obviously we have had 
many people here on other water settlements that have been 
through extensive legal battles? So is it the fact that we are 
able to take things off the table because we knew they did not 
work that brought people to the table or do you think there is 
something so unique about Washington? Which I am happy to 
believe. [Laughter.]
    We are very collaborative; I mean, the Klamath Basin comes 
to mind. Why isn't the Klamath Basin pursuing a similar 
approach?
    Mr. Sandison. Because we are unique in Washington.
    Senator Cantwell. Okay. [Laughter.]
    Mr. Sandison. Yeah. Again, I think this was, in many 
respects, just a matter of maturity that, as you indicated, 
that many previous attempts had failed in terms of trying to 
come up with support for individual projects. And it was the 
recognition that, again, it's a broader set of problems that 
we're trying to resolve than just simply adding water to the 
stream or to the river.
    That broader sense, but also the notion that the time was 
right, that decades had gone by, study after study and no 
substantive action. And that it really, we were at a point 
where the--in fact this was discussed in the first meeting when 
the workgroup was pulling together. There was a large mural or 
a poster with a stack or a picture of all the studies that have 
been done in the Yakima Basin prior to the workgroup being 
formed.
    It was a mountain of documents, yet no, again, very low 
substantive action. And I think that the folks in the room, the 
stakeholders, the Yakama Nation, the state, Bureau of 
Reclamation, others, just realized that we have to do something 
to change the status quo to make these improvements. And there 
was just this overall commitment to say, yeah, I'm willing to 
set aside my individual, specific interests right now and 
again, work for the greater good.
    So I guess it was a, no pun intended, it was a watershed 
moment, I think, back in 2009 when the group formed and came to 
this, sort of, realization that it was time to put something on 
the ground.
    Senator Cantwell. Well, I think having a seat at the table 
for everyone certainly conveyed that. I remember a meeting that 
we had with Secretary Salazar and Doc Hastings.
    Mr. Sandison. Exactly.
    Senator Cantwell. With the Bureau of Reclamation and I 
don't know how many, 30 people.
    Mr. Sandison. Yup.
    Senator Cantwell. On a Sunday morning.
    Mr. Sandison. Yes.
    Senator Cantwell. Because that is when the Secretary's 
schedule would allow. The fact that everybody was there meant 
that it was going to be a serious approach, that it was not 
going to be torpedoed later by somebody who was not at the 
table.
    Mr. Sandison. Right.
    Senator Cantwell. So I think the fact that it became a real 
process led people to then decide what are the most 
fundamentally important things to get done, as you have 
outlined in this phase of the project.
    Mr. Eberhart, I cannot remember, but somebody's testimony, 
municipal water issues were really at risk here, right? I mean, 
when you look at how this is going to be. If we did not come up 
with a plan, pretty soon some of the challenges were going to 
be right within the municipal system, right?
    Mr. Eberhart. Yes. And in the Integrated Plan, in this 
process, we have covered the supply that the municipalities 
will need to grow as we move forward. So we did improve that 
too.
    I think one of the other things that wasn't touched on in 
the whole discussion of how we got together or why we are where 
we are and one key point is pure survival. None of the 
interests will be able to, would have been able to survive if 
we would have continued on the same road that we were on.
    So it was time, as it's been mentioned by the other panel 
members, it was time to move forward and come up with a way 
that we could solve the problems and that we could do it. We 
knew we could do it cooperatively, together. We also knew that 
we couldn't do it individually. So it was just a realization 
that the things would be so bad if we didn't do this.
    Senator Cantwell. To that point, Mr. Iseman, we appreciate 
the Administration's support. You have outlined in your 
testimony how do we work together with other agencies that will 
be involved in this? You will be the point person for that?
    Mr. Iseman. Yeah. We'll actually have something called the 
DC Leadership team that includes all the Federal agencies that 
have an interest in the Yakima Integrated Plan.
    We're going to meet with this group and some of those 
agencies later today to talk more about these issues and how to 
move forward.
    We know that legislation provides a good road map for where 
we need to go, but there's going to be a lot of work between 
now and then in terms of how we execute it. So we will continue 
to work with the other agencies and the Administration as well 
as the local stakeholders to advance these projects.
    Senator Cantwell. Well, again I want to thank the region 
for being here today and the witnesses. I cannot say how 
impressed I am and excited by the Plan that you have put forth 
that is now incorporated in this legislation and how much I 
appreciate being able to represent those interests in the 
context of it's great to have such innovation and bring it back 
here to Washington. I hope that it does help us understand some 
of the challenges we do face with drought.
    Mr. Iseman, I doubt this will be the last time you will be 
before this Committee talking about what we are going to do 
about that in the future. What I like about this Plan is that 
you can get agreement on the lowest hanging fruit. Implementing 
those solutions right away can help us mitigate some of the 
huge economic impacts that we are going to see from drought.
    So, I think looking at this as, if nothing else, an example 
for how low hanging fruit can be something that we prioritize 
in our most stricken drought areas, I think, will be very, very 
helpful for us.
    Again, thank you, Madam Chair for holding this important 
hearing. And again, congratulations to everybody for their hard 
work on this. I know you didn't used to hang out, but thanks 
for hanging out----
    [Laughter.]
    Senator Cantwell. Together today, and thanks for your--I 
know you guys have built friendships, so thank you.
    The Chairman. I want to join my colleague from Washington 
in thanking you, not only for this issue, but I do think that 
it gives others around the country in the West, a glimmer of 
hope that perhaps after decades of their own water wars they 
might be able to come to legislative solutions that will 
prevail for all stakeholders.
    So, thank you for not only being before the Committee 
today, but for your years of engagement on very important 
issues. We appreciate you being here.
    With that, the Committee stands adjourned.
    [Whereupon, at 11:13 a.m. the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------                              
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]



</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
